                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

    Case Number: A06120059
                                                                                11          Page 1 of 1



         We received an allegation of intellectual property theft in the subject's' proposal submitted to
         NSF. Evaluation revealed apparent verbatim duplication of text and figures in three of the
         subject's submitted.NSF proposals.2 The matter was referred to the university; their
         investigation revealed that an undergraduate student provided the majority of duplicated text to
         the subject for inclusion in the proposal. The amount of remaining text is insufficient to advance
         to a report of investigation. No finding of research misconduct was made by the University, and
         the University provided assurances that the subject appreciates the importance of avoiding
         plagiarism in future proposals.

         Accordingly, this case is closed.




          '
I             Redacted.
              Red acted.




NSF OIG Form 2 (1 1/02)
